OIG Investigative Reports Press Release Detroit, MI., 04/17/2013 - Former Pontiac Schools Associate Superintendent and Chief Financial Officer Sentenced to 12 Months in Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of MICHIGAN
NEWS
Former Pontiac Schools Associate Superintendent and Chief Financial Officer Sentenced to 12 Months in Federal Prison
FOR IMMEDIATE RELEASE
April 17, 2013
A former Associate Superintendent and Acting CFO of Pontiac Schools was sentenced today to 12 months in federal prison followed by one year home confinement, three years of supervised release and ordered to pay restitution to Pontiac Schools in the amount of $336,000 after having been convicted of one count of defrauding a program receiving federal funding, announced United States Attorney Barbara McQuade.
McQuade was joined in the announcement by Special Agent in Charge Robert D. Foley, III, Federal Bureau of Investigation.
Jumanne Sledge, 41, was sentenced by U.S. District Judge Denise Page Hood in Detroit, Michigan.
In February, 2010, Sledge directed a subordinate at Pontiac Schools to issue a check payable to his "International Leadership Academy" in the amount of $236,000.00. Sledge cashed the check and deposited it into his bank account. When later asked for an invoice and purchase order, Sledge created a false invoice to make it appear a payment for a legitimate service. Sledge used the money to finance luxury vehicles, travel and other personal items.
"Among all of the corruption defendants we charge, school officials who steal money are particularly culpable because they are robbing children of their education," McQuade said.
This case was investigated by the FBI and the U.S. Department of Education, Office of Inspector General.
AUSA J. Michael Buckley investigated and prosecuted the case for the United States.
Top
Printable view
Last Modified: 04/23/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov